                                Pension
                                P       Benefiit Guarranty C
                                                           Corpora
                                                                 ation
                                                                    Office
                                                                         e of Inspe
                                                                                  ector Ge
                                                                                         eneral
                                                  1200 K Stre
                                                            eet, N.W., W
                                                                       Washington
                                                                                n, D.C. 2000
                                                                                           05-4026


                                                                                            February 6, 2013


The Honorable
    H          George Miller
U. S. House of Rep
                 presentatives
Rankiing Member, Committee ono Education and
                                         a the Workkforce
2205 Rayburn Hou use Office Bu
                             uilding
Washhington, DC 20515
                2

        Re:      OIIG Review off PBGC’s Rev
                                          valuation of C
                                                       Certain UAL Pension Plann Assets

Dear Representativ
                 ve Miller:

I am writing
      w       to pro
                   ovide our concclusions on mym office’s woork regardingg Pension Bennefit Guarantyy
Corpo oration’s (PBGGC) actions to
                                 t value assets that the Corrporation receeived when ceertain United
Airlin
     nes (UAL) pen   nsion plans were
                                 w terminateed. Using a ddollar unit sam     mpling methoodology, my ooffice
tested
     d a sample of 105 assets to determine wh    hether the assset value was supported byy sufficient,
competent, and reliable evidencce; whether mathematical
                                              m               ccalculations ssupporting thee asset value w
                                                                                                         were
accuraate; and whetther the assett had been vallued using a ggenerally acceepted methoddology. Our
testing
      g addressed $6$ billion of approximately
                                 a              y $21 billion aassets. For thhe assets we ttested, we
concluuded that PBG GC’s latest coontractor had properly valuued the assetss at the fair m
                                                                                         market value aat the
date of
     o plan termin                              t all assets,, therefore, wee provide no assurance on non-
                   nation. My offfice did not test
tested
     d assets; however, the Offiice of Inspecttor General (O  OIG) did not iidentify any iinformation thhat
would d lead us to qu
                    uestion the vaaluation for th
                                                he items we ddid not test.

Thoug gh we were ab  ble to test and
                                   d validate a siignificant porrtion of PBGC C’s most receent asset valuaation
for UAAL plans, wee continue to have
                                   h     concernss regarding PPBGC oversigght of contracttor operationss and
the co
     ompliance witth contract requirements. As    A you know  w, the efforts oof an internatiional Certifieed
Publicc Accountingg (CPA) firm represented
                                   r            PBGC’s
                                                P         third attempt to deetermine the ffair market vaalue
of UAAL plan assetss. As the resu  ult of numeroous meetings bbetween OIG   G, PBGC and tthe CPA firm    m,
OIG gained
      g      a suffiicient understanding of thee contractor’s methodologyy and identifieed applicable
suppoorting documeentation to en  nable us to perrform tests annd reach a connclusion regaarding the asseet
valuattions sampledd. However, we  w believe th hat PBGC receeived, review  wed and acceppted reports annd
work that did not fully
                   f      comply with
                                   w contract requirementss. Problems w       with contractoor oversight aand
accepptance of delivverables whicch do not meeet contract term  ms are a reocccurring issuee with PBGC.

If you            uestions pleasee contact me at (202) 326--4000 ext. 34337, or have a member of yyour
      u have any qu
staff contact
      c       Deborrah Stover-Sp
                               pringer, Depuuty Inspector GGeneral, at
(202) 326-4000 ex xt. 3877.

Sincerely,




Rebeccca Anne Battts
Inspecctor General
